<html>
<title> - MAP-21 REAUTHORIZATION: THE ECONOMIC IMPORTANCE OF MAINTAINING FEDERAL INVESTMENT IN OUR TRANSPORTATION INFRASTRUCTURE</title>
<body><pre>[Senate Hearing 113-748]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-748

MAP	21 REAUTHORIZATION: THE ECONOMIC IMPORTANCE OF MAINTAINING FEDERAL 
            INVESTMENT IN OUR TRANSPORTATION INFRASTRUCTURE

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 12, 2014

                               __________

  Printed for the use of the Committee on Environment and Public Works


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



       Available via the World Wide Web: http://www.gpo.gov/fdsys




       
                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-584 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
       
       
       
       
       
       
       
       


               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED THIRTEENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JAMES M. INHOFE, Oklahoma
BERNARD SANDERS, Vermont             JOHN BARRASSO, Wyoming
SHELDON WHITEHOUSE, Rhode Island     JEFF SESSIONS, Alabama
TOM UDALL, New Mexico                MIKE CRAPO, Idaho
JEFF MERKLEY, Oregon                 ROGER WICKER, Mississippi
KIRSTEN GILLIBRAND, New York         JOHN BOOZMAN, Arkansas
CORY A. BOOKER, New Jersey           DEB FISCHER, Nebraska
EDWARD J. MARKEY, Massachusetts

                Bettina Poirier, Majority Staff Director
                  Zak Baig, Republican Staff Director
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                            C O N T E N T S

                              ----------                              
                                                                   Page

                            FERUARY 12, 2014
                           OPENING STATEMENTS

Boxer, Hon. Barbara, U.S. Senator from the State of California...     1
Vitter, Hon. David, U.S. Senator from the State of Louisiana.....     3
Merkley, Hon. Jeff, U.S. Senator from the State of Oregon........     4
Wicker, Hon. Roger, U.S. Senator from the State of Mississippi...     5
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     5
Inhofe, Hon. James, U.S. Senator from the State of Oklahoma......     6
Gillibrand, Hon. Kirsten, U.S. Senator from the State of New York     8
Fischer, Hon. Deb, U.S. Senator from the State of Nebraska.......     9
Cardin, Hon. Benjamin, U.S. Senator from the State of Maryland...     9
Sessions, Hon. Jeff, U.S. Senator from the State of Alabama......    11
Barrasso, Hon. John, U.S. Senator from the State of Wyoming......    12

                               WITNESSES

Donohue, Thomas J., President and CEO, U.S. Chamber of Commerce..    13
    Prepared statement...........................................    15
    Response to an additional question from Senator Boxer........    37
    Responses to additional questions from:
        Senator Vitter...........................................    38
        Senator Inhofe...........................................    39
        Senator Sessions.........................................    41
Trumka, Richard L., President, AFL-CIO...........................    44
    Prepared statement...........................................    46
    Response to an additional question from Senator Boxer........    53
    Responses to additional questions from:
        Senator Inhofe...........................................    55
        Senator Sessions.........................................    57
Hancock Hon. Mike, President, American Association of State 
  Highway and Transportation Officials; Secretary, Kentucky 
  Transportation Cabinet.........................................    60
    Prepared statement...........................................    62
    Responses to additional questions from Senator Boxer.........    78
    Response to an additional question from Senator Vitter.......    80
    Responses to additional questions from Senator Inhofe........    81
    Response to an additional question from Senator Wicker.......    83
Ruane, T. Peter, Ph.D., President and CEO, American Road and 
  Transportation Builders Association............................    84
    Prepared statement...........................................    86
    Responses to additional questions from:
        Senator Boxer............................................   103
        Senator Vitter...........................................   105
        Senator Inhofe...........................................   108
Timmons, Jay, President and CEO, National Association of 
  Manufacturers..................................................   115
    Prepared statement...........................................   117

                          ADDITIONAL MATERIAL

Statement of PCA America's Cement Manufacturers..................   135

 
MAP-21 REAUTHORIZATION: THE ECONOMIC IMPORTANCE OF MAINTAINING FEDERAL 
            INVESTMENT IN OUR TRANSPORTATION INFRASTRUCTURE

                              ----------                              


                      WEDNESDAY, FEBRUARY 12, 2014

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Building, Hon. Barbara Boxer (chairman 
of the full committee) presiding.
    Present: Senators Boxer, Vitter, Cardin, Whitehouse, 
Merkley, Gillibrand, Barrasso, Wicker, Boozman, Fischer.

           OPENING STATEMENT OF HON. BARBARA BOXER, 
           U.S. SENATOR FROM THE STATE OF CALIFORNIA

    Senator Boxer. Good morning, everybody.
    I am so happy to see you all here. This is such an 
important issue that we are discussing today. We are focusing 
on maintaining Federal funding for transportation, maintaining 
Federal funding. That is what is at stake here, for 
transportation. Ensuring the long-term solvency of the Highway 
Trust Fund and averting a major crisis later this year.
    We will hear from our witnesses who are national leaders 
representing businesses, States and workers who build, maintain 
and utilize our transportation system.
    I am so pleased to once again welcome Tom Donohue from the 
U.S. Chamber and Richard Trumpka from the AFL-CIO. I always 
feel when they are together we have a winning issue. They are 
joined by Hon. Mike Hancock, Secretary of the Kentucky 
Transportation Cabinet and current President of AASHTO; Dr. 
Pete Ruane, President and CEO of American Roads and 
Transportation Builders; and Jay Timmons, President and CEO of 
the National Association of Manufacturers.
    I want to say to all who are here that there will be 
devastating impacts felt across our economy if the Highway 
Trust Fund is allowed to run out of funds later this year. We 
must not let that happen. Here are the sobering facts. CBO and 
DOT estimate that the Highway Trust Fund may run out of funds 
as early as September 2014, which would create cash-flow 
problems for States during the critical summer construction 
season. Due to the uncertainty leading up to that bleak 
scenario, States are already beginning to develop contingency 
plans to prepare for reductions in Federal transportation 
funding, which includes cutting pending projects from their 
current funding plans. This is terrible for businesses, for 
workers and for our Nation.
    According to Georgia's department of transportation, if 
Federal funding is cut, ``We wouldn't be able to fund any new 
projects.'` Officials from other States have made similar 
statements and the effects are very negative, to say the least. 
As States postpone putting construction contracts out to bid, 
business will be more reluctant to invest, and that impact will 
be felt throughout the entire economy.
    Let me be clear. The pending Highway Trust Fund shortfall 
must be addressed by an infusion of funds. Otherwise, CBO 
estimates that obligations for new projects in 2015 would need 
to be reduced to zero, zero. This would result in Federal 
highway, highway safety and transit funding being cut by $50.8 
billion in 2015 with almost 1.8 million jobs lost. Only old 
projects could be funded. No more new projects.
    Again, this means that States will be unable to obligate 
any Federal funds for any new projects perhaps as early as this 
summer. It is critical for our Nation to continue investing in 
our aging infrastructure. Therefore, preserving the Trust Fund 
needs to be our No. 1 priority in this committee and other 
committees and in the Senate and the House. We must work 
together to find a sweet spot for the dependable bipartisan 
source of funding for the Highway Trust Fund. A strong 
transportation system is vital to ensuring the economic 
competitiveness of the United States of America. This requires 
maintaining Federal investments in our transportation 
infrastructure.
    A report last year from the National Association of 
Manufacturers, and I am so happy they are with us today, found 
that 70 percent of U.S. manufacturers believe America's roads 
are getting worse, and 67 percent believe that infrastructure 
is important enough to American businesses that all options to 
fund investments should be on the table. I thank NAM for that.
    Roads and bridges are not Democratic, they are not 
Republican. And I am so proud of the bipartisan support on our 
committee, from my Ranking Member, Senator Vitter, to every 
member on this committee. I have met with almost every one of 
them. It is our intention to report out a bill, and I am hoping 
for a five or 6 year bill.
    I have begun discussions with Chairman Wyden and Ranking 
Member Hatch on funding the Highway Trust Fund. They know they 
have that responsibility. And I know we will all work with 
them.
    To all of our witnesses, tank you for being here and for 
your advocacy for a strong transportation system. We need you 
now more than ever. You have been with us through these battles 
before, and we have won those battles because of our unity. So 
whatever our differences may be in other areas, and we know we 
have them, but we don't have them here. Being partners is 
critical to our success.
    With that, I would turn to my Ranking Member, Senator 
Vitter.

          OPENING STATEMENT OF THE HON. DAVID VITTER, 
            U.S. SENATOR FROM THE STATE OF LOUISIANA

    Senator Vitter. Thank you, Madam Chair, and thanks to all 
of our witnesses. Thanks for today's hearing, Madam Chairman. 
It is very appropriate that as we hopefully are finalizing a 
WRDA conference, our first big piece of infrastructure work on 
this committee, and we are very hopeful about that, we 
increasingly turn our attention to our next big infrastructure 
work, which is the next Highway Bill. We are both excited to do 
that and are both actively doing that.
    Thanks to our witnesses. You represent a diverse group of 
interests. But collectively, you represent a strong and common 
voice on this issue.
    Infrastructure is a critical component of our Nation's 
economy and our quality of life. First class infrastructure is 
fundamental to connect people and communities. It is a critical 
building block for our economy. In 2011 alone, the U.S. 
transportation system moved 17.6 billion tons of goods, valued 
at almost $17 trillion. However, as the Chair suggested, just 
last week CBO came out with their updated projections for the 
Highway Trust Fund. That trust fund is accelerating toward 
bankruptcy faster than anticipated. Action must be taken before 
the end of the Fiscal Year to avoid what the chair described, a 
nearly 100 percent drop in new Federal funds in Fiscal Year 
2015. The economic impact of such a drop would resonate far 
beyond the lack of direct investment into our infrastructure. 
Inaction would drastically disrupt the project delivery supply 
chain, the efficiency and cost of movement of our goods and our 
overall competitiveness.
    The Highway Trust Fund was intended to not only facilitate 
the unique characteristics of funding transportation 
infrastructure, but also to provide funding safeguards for the 
highest priority projects. Putting such a structure on a sound 
fiscal footing will restore the stability and certainty of the 
trust fund that is so vital to economic growth.
    I have to say, some believe that for some reason it is a 
core conservative principle to adhere strictly to our current, 
flawed mechanism in perpetuity and that is all there should 
ever be to meet our infrastructure demands. I don't understand 
that at all, and will be advocating for solutions that go 
beyond that.
    What I do understand is concerns about a net tax increase 
for cash-strapped middle class families. And I will be seeking 
a solution that fully addresses our Highway Trust Fund needs 
while not imposing such a net tax increase.
    When the trust fund structure was first established, it was 
designed to build the interstate highway system, and it was 
structured based on the simple principle that first you map out 
and define a detailed plan. You come up with a cost to complete 
that plan, and then you build a user-based financing structure 
to complete that task. Such thinking not only produces a 
certainty of a 13 year authorization bill, but it also 
established good government accountability and trust from 
system users.
    However, that type of thinking is almost unrecognizable in 
our transportation funding structure today. The actions of the 
last 6 years represent a significant departure from the intent 
of the Highway Trust Fund and have prolonged economic 
uncertainty not only in the direct investment of our 
infrastructure but also the type of long term investment that 
drives economic development at home and makes us more 
competitive abroad.
    If we are going to be successful in restoring that type of 
structure, we fundamentally have to put trust back in the 
Highway Trust Fund. To me this means we can't keep adding 
programs and eligibility to the trust fund that are narrowly 
focused, that don't build or maintain infrastructure or do very 
little to benefit those who pay into the system. It means the 
trust fund needs to be even more transparent than before to 
rebuild that trust. We need to be able to show where taxpayer 
dollars are going and where future investments may or may not 
be utilized on a project by project level.
    And finally, we must rebuild that trust by continuing to 
reduce the cost burden and impact of red tape and bureaucracy. 
The Chair and I are hard at work putting significant reform 
ideas together in a new bill that can rebuild that trust and 
that can start the process and get the Finance Committee moving 
as a full partner on the finance piece.
    So we hope to be moving such a base bill through the 
committee to encourage the Finance Committee to take it up and 
address the finance piece as a full partner. So I very much 
look forward to your testimony, very much look forward to that 
work of rebuilding trust in the Trust Fund so that we can fully 
finance our clear infrastructure needs. Thank you.
    Senator Boxer. Senator Vitter, thank you. I think this 
gives the signal that we are very much of one mind as how to 
proceed, which is very important.
    Here is the situation. We have several votes at 11:30. So I 
am going to ask Members to keep their remarks to about 4 
minutes, if you can, your opening remarks. And we will turn to 
Senator Merkley.

            OPENING STATEMENT OF HON. JEFF MERKLEY, 
             U.S. SENATOR FROM THE STATE OF OREGON

    Senator Merkley. Thank you, Madam Chair.
    I think this is a very important project, that we pursue 
renewal of MAP-21. I know Oregon's Department of Transportation 
is very nervous about the pending shortfall in the Highway 
Trust Fund. If our States have to delay projects, that of 
course results in much higher costs. It also results in a 
direct impact on jobs within the State. We anticipate that we 
would have a challenge, we would lose about 5,000 jobs in 
Oregon if we don't succeed in this effort during 2015.
    So I am very aware that America is spending only 2 percent 
of its GDP on infrastructure. Europe is spending 5 percent, 
China is spending 10 percent. The experience of going to 
Beijing 10 years apart, saw Beijing go from bicycles to bullet 
train in that time period.
    Our 2 percent can't even repair the aging infrastructure we 
have from World War II. We have to do more. Let's get it done.
    It is terrific to have Chair and Ranking Member working 
together to help take this project forward. It is extremely 
important to our economy and to the infrastructure that will 
fuel our future economy.
    Senator Boxer. Senator, thank you for your support and our 
comments.
    We will turn to Senator Wicker.

            OPENING STATEMENT OF HON. ROGER WICKER, 
           U.S. SENATOR FROM THE STATE OF MISSISSIPPI

    Senator Wicker. Thank you, Madam Chair, and thank you, 
Ranking Member Vitter, for holding this important hearing. 
Bipartisanship is breaking out all over in the Congress. It 
continues today and as we debate Federal transportation 
reauthorization, I hope we can build on this success. Funding 
transportation infrastructure is a combined Federal and State 
responsibility. We need to do better, because the Nation 
deserves better, as Senator Merkley said. We need to pass a 
reauthorization that lasts longer than 2 years.
    Earlier in this Congress, this committee held a hearing on 
the implementation of the provisions of MAP-21. Most of these 
provisions have yet to be enacted. State departments of 
transportation need the certainty of a long-term 
reauthorization to plain, maintain, build and expand.
    That said, we should still proceed with caution. We need to 
continue to let the States be the laboratories for best 
practices. More than 30 States are considering or have 
considered increasing revenues for transportation 
infrastructure. Over a dozen of these States have committed and 
passed these increases into law. We should allow and encourage 
these experiments to continue. Let the States be the proving 
ground for some of the more radical or innovative proposals 
that have been brought forward. What may work in one State may 
not work for all States.
    There are other issues that need to be addressed. We need 
to examine the root causes of our current situation. Over the 
last two decades, the buying power of gas tax revenues has 
slowly declined, not only as a result of increasing maintenance 
and construction costs, but also as a result of increasing fuel 
efficiency. We need to ensure that all users shoulder an 
equitable burden for the wear and tear on our Nation's roads.
    Finally, Madam Chair, we need to safeguard the integrity of 
the gas tax as a user fee. We have an obligation to the users 
who are paying the fee, an obligation to ensure the revenues 
are going to their intended purpose; namely, building and 
maintaining our Nation's roads and highways.
    Thank you, Madam Chair.
    Senator Boxer. Thank you so much, sir.
    Now we will turn to Senator Whitehouse, followed by Senator 
Inhofe.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Chairman, for calling this 
hearing. It has not been that long since we were able to pass 
MAP-21 in an overwhelmingly bipartisan fashion. We did that 
because we recognized the value of investing in our 
transportation infrastructure, projects that put Americans to 
work and ensure that our goods and services can get efficiently 
to market.
    That bipartisan view is reflected in today's hearing. That 
bipartisan view is reflected in today's hearing, which brings 
together groups that don't agree on many things, but they do 
know that building roads and bridges can create quality jobs 
across the Country and help our economy move forward.
    That is nowhere more important than in my home State of 
Rhode Island, which still suffers an unemployment rate of 9.1 
percent. We have no shortage of transportation projects that 
could put Rhode Islanders to work. The I-95 corridor runs 
through our capital city and the Providence Viaduct there, 
built in 1964, is showing its age. Its deck is badly 
deteriorated, the steel girders are cracked, wood plans have 
been installed to prevent concrete from falling off the viaduct 
onto cars crossing it below. And similarly for the Amtrak 
trains that go underneath it.
    Happily, with the help of a TIGER grant and other Federal 
funds, that project has broken ground, and a replacement bridge 
on one way of the highway is under construction. But there is a 
lot more work to do on the northbound lane, where Route 6 and 
Route 10 converge with Highway 95 there. And that central 
location in Providence is just one example of how Federal 
transportation programs are necessary and can help put people 
to work.
    Less than 2 years ago, we put MAP-21 into place with some 
important reforms. But the thing we were not able to get done 
was to solve the problem of the diminishing and soon to be 
vanishing Highway Trust Fund. So it is headed for zero, and 
when it gets to zero, that is going to be a real disaster for 
transportation and infrastructure. So I am particularly 
interested in hearing from areas where our witnesses might find 
common agreement as to how we can address the central issue for 
the next reauthorization bill. I don't think just raising the 
gas tax is going to help, as mileage increases, electric cars 
emerge, and hybrid cars also cut into the value of the gas tax 
as a source for highway infrastructure.
    I thank the Chairman, I thank the Ranking Member, who I 
understand is next door meeting with some constituents. I 
appreciate the panel being here together, even in some unusual 
pairings.
    [Laughter.]
    The Chair. Thank you. In my opening statement, I talked 
about how we have already begun talks with Senators Wyden and 
Hatch, because it is their purview to fund this. They are very, 
I think they are excited with the challenge, not that it will 
be easy. Nothing is easy.
    Senator Inhofe.

            OPENING STATEMENT OF HON. JAMES INHOFE, 
            U.S. SENATOR FROM THE STATE OF OKLAHOMA

    Senator Inhofe. Thank you, Madam Chairman. I do have a long 
and brilliant opening statement to give. But I will listen to 
you and submit that and just for the record make a couple of 
comments.
    Senator Boxer. Without objection.
    Senator Inhofe. There is one paragraph in here that I do 
want to actually read. As I see it, we have four choices moving 
forward, one based on CBO estimates, and if we don't find any 
new revenue in the trust fund, we are looking at a 90 percent 
cut in the program in less than 8 months. And some data 
actually has that figure at 100 percent.
    Second, we simply, this is something we will talk about 
later on, transferring from the general fund. Third, raise 
revenue. And four, in the absence of answering the first three, 
before MAP-21 expires we once again rely on a series of short-
term extensions. This is something I want to avoid.
    And I have to say, confession is good for the soul. Our 
problem, and it seems like every year, and I have been involved 
in these every year since I was on the T&K Committee in the 
House many years ago. It is not so much with the Democrats but 
with the Republicans. There is this passion for some 
Republicans to get the conservative ratings and somehow when 
something big on spending comes along, they use that as an 
example. But that is the bad news.
    The good news is, over on the House side, and I was 
privileged to go over, you guys need to understand this, you 
already knew this, I got all 33 of the House Republicans on the 
T&I Committee in one room. This was right after we passed this 
out of the Senate. I told them about the guys that were 
demagoguing this on the floor. I said, I know a lot of you guys 
are conservative. So I gave them my pitch as to the liberal 
vote would be to vote for extensions, the extensions that we 
had, nine extensions between the last two cost about 30 percent 
off the top. That is not something that conservatives should be 
doing. And I am not saying it was my influence there, but all 
33 of them voted in favor of it and enthusiastically supported 
it.
    So I think we are making some headway there. Again, I look 
at the trust fund, and you just can't tell me that maintaining 
unused, vacant Federal properties at $25 million a year is more 
important than reauthorizing a highway bill. There are a lot of 
things that come out of the general fund. And I think we are 
going to have to look at that. We may end up having to do that 
anyway, like we did last time.
    But if you read the Constitution, Article I, Section 8, it 
says clearly that the main thing we are supposed to be doing 
here is defense and infrastructure. So my case rests, we will 
go after it.
    [The prepared statement of Senator Inhofe follows:]

            Statement of Hon. James M. Inhofe, U.S. Senator 
                      from the State of California

    Thank you chairman Boxer. And thank you to our panelists 
for making the time to be here as well.
    As we are all aware, CBO released their projections of the 
Highway Trust Fund last week that show that the accounts are in 
some real trouble. While this wasn't unexpected, it is 
unacceptable that we continue to ignore the failures of the 
White House and Congress to commit to consistently funding 
multi-year transportation bills. We are not just talking about 
the construction jobs the President mentions, we are talking 
about the decision companies make when they are looking to 
expand and, in many cases, relocate back to the US yet are 
faced with an ill-equipped surface transportation network. As 
we focus on failed Unemployment Insurance extensions, we should 
be spending our time addressing the causes and not the symptoms 
of our economic woes. Whether we are facing a series of short-
term extensions or long-term reauthorizations of MAP-21, I can 
assure you I will not let the Federal highway program cease to 
be the backbone of our economy as it has been for close to a 
century.
    As I see it, we have four choices moving forward: One, 
based on CBO estimates, if we don't find any new revenue in the 
trust fund, we are looking at a 90 percent cut in the program 
in less than 8 months, and some data actually has that figure 
at 100 percent. Two, we simply transfer more money from the 
general fund. Three, we raise revenue. And four, in the absence 
of answering the first 3 before MAP-21 expires, we once again 
rely on a series of short-term extensions to keep the program 
on life support.
    Now as many of you have heard me say over the years, 
dramatic cuts to the Highway program is not something I am 
going to let happen. We've turned to the general fund in the 
past and though it should be a last resort, it is ultimately 
something we will have to return to without consensus on new 
long-term, sustainable revenue. Realistically, the General Fund 
is our only option in the short run as we're looking at a 
Highway Trust Fund that is going to have difficulty meeting its 
obligations sometime before the end of this fiscal year. 
Looking forward, if we want to do a 6 year bill like we should, 
CBO estimates we'll need $100 billion, or around $16.6 million 
a year in new revenue or general fund transfers. Raising 
revenue for the Highway Trust Fund should be our first focus, 
but the reality is that it's going to have to come from the 
general fund in the short term and you can't tell me that 
maintaining unused or vacant Federal properties at $25 million 
per year is more important than reauthorizing the highway bill 
which could provide jobs that Americans desperately need. 
Finally, I do not believe that short-term extensions are the 
answer. Our states, industries, and economy need long-term 
authorizations that ensure funding and allow for the planning 
of big, long-term projects of regional and national importance. 
I have often said the conservative position is to prevent short 
term extensions, because as history showed us after 9 
extensions between SAFETEA-LU and MAP-21, we lose 30 percent of 
the Highway Trust Fund's resources when we fail to achieve 
longer term funding bills. I believe we can do better.

    Senator Boxer. You always make a very good case. I just 
want to point out that in addition to your talking to the Tea 
Party members of there, I had tea, or coffee with quite a few 
of them. I enjoyed it, actually, and we did get tremendous 
support. Remember, Senators Wyden and Hatch are going to decide 
how this is paid for over there in that committee.
    Senator Gillibrand.

         OPENING STATEMENT OF HON. KIRSTEN GILLIBRAND, 
            U.S. SENATOR FROM THE STATE OF NEW YORK

    Senator Gillibrand. Thank you, Madam Chair. I can't tell 
you how grateful I am that you have pulled together this 
distinguished panel of witnesses to discuss the importance of 
investing in our Nation's infrastructure and transportation 
systems.
    This is an issue, obviously, that unites both labor and 
business. Because the United States cannot maintain our 
competitive global edge without a strong network of roads, 
bridges and rails to move people and products safety and 
efficiently forward. It is as simple as that, but with 
deadlines looming to reauthorize MAP-21, and new funding to 
shore up the Highway Trust Fund, we run the risk of doing real 
damage to our economy if Congress fails to act. There will be 
serious consequences for each of our States, for businesses 
both large and small, as well as for working families who 
depend on our transportation networks just to get to school, to 
get to work, to get home safely and reliably.
    We all know that the Highway Trust Fund is projected to 
become insolvent by the end of the summer. The effect would 
have severe impacts in my State of New York. New York has 628 
Federal aid highway projects scheduled to begin in 2015 which 
requires approximately $2 billion worth of funding. Forty 
percent of these projects are on bridges that are in need of 
construction or repair. Without the new funding from the 
Highway Trust Fund to start these projects next year, New York 
State would have to begin restricting the use of roads and 
bridges that are no longer safe, or can no longer handle the 
capacity for which they were originally designed. This would 
result in detours, delays, problems with getting things that 
need to be brought into our commerce. It means more time and 
money lost for businesses and families who are just struggling 
to make it in this tough economy.
    New York State is by no means alone. This will hurt every 
single one of our States and ripple through our whole 
transportation system. So we really can't afford the delays by 
Congress. We really have to make sure that Congress acts now. 
We risk falling behind other countries that are making these 
investments, sending businesses and jobs overseas instead of 
bringing them here and keeping them here where they belong.
    So the long term consequences of inaction, in my view, are 
extremely costly. Thank you, Madam Chairwoman, for holding the 
hearing, and I look forward to the testimony of the witnesses.
    Senator Boxer. Thank you so much, Senator.
    Now we turn to Senator Fischer.

            OPENING STATEMENT OF HON. DEB FISCHER, 
            U.S. SENATOR FROM THE STATE OF NEBRASKA

    Senator Fischer. Thank you, Madam Chair and Ranking Member 
Vitter, for holding this hearing. Thank you to our panelists 
who came today as well.
    There is no doubt that our roads and bridges are essential 
to the economic health of our Nation. In Nebraska, our 
agricultural industry is especially reliant on an efficient 
transportation system to move goods from farm to market. 
Investment in infrastructure is the key to expanding and 
strengthening commerce and promoting opportunity for this 
business growth.
    With the Highway Trust Fund again on the brink of 
insolvency, it is clear that it is time for Congress to put 
infrastructure investment back on a sustainable course. I 
believe that a limited government should focus its resources on 
meeting its core duties. Infrastructure, including highway 
maintenance and construction, is one of those important 
responsibilities.
    As we work on the next highway reauthorization bill, I am 
hopeful that this committee will continue to work toward policy 
reforms that will ensure that the Federal dollars we are 
investing are devoted to tasks that truly add value to the 
projects and are not wasted on piling up paperwork that only 
serves to fulfill bureaucratic requirements.
    While MAP-21 made some needed improvements to accelerate 
project delivery, there is still much work to be done. I look 
forward to the hearing today and again, thank you. Thank you, 
Madam Chair.
    Senator Boxer. Thank you, Senator Fischer.
    We turn to Senator Cardin.

          OPENING STATEMENT OF HON. BENJAMIN CARDIN, 
            U.S. SENATOR FROM THE STATE OF MARYLAND

    Senator Cardin. Madam Chair, thank you for conducting this 
hearing. We have a very distinguished panel before us.
    It is always a pleasure, I remember last time we had Mr. 
Donohue and Mr. Trumpka together on a similar bill here. So it 
is nice to see the entire panel together, but labor and 
business recognizing the importance of a long-term surface 
transportation reauthorization. I want to stress that, Madam 
Chair. I think it is critically important that we do a long-
term surface transportation reauthorization, to give 
predictability to our transportation program in this Country. 
You can't plan transportation needs on a 1-year or 2-year 
basis. You have to have at least a five or 6 year 
reauthorization bill in order to do the types of modernized 
transportation needs that we have in this Country.
    As many of the Members of this committee have already 
pointed out, and as our panel will point out, this is about 
jobs, it will create for our economy. Not only the direct jobs 
related to the construction of our transportation needs, but 
also establishing the way in which we can attract the type of 
economic activities in our community that modern transportation 
provides.
    It is also important for livability. It took me about 2 
hours coming in this morning from Baltimore. That is not 
unusual. The traffic around Baltimore and traffic around 
Washington, every care we can get off the road into transit, 
believe me, helps everyone, not just the person who has a much 
nicer experience being able to get to work, but also allowing 
the commerce of our highways being able to move more 
efficiently, with less cars on the road.
    So all that is critically important. I can put a plug in 
right now, Madam Chair, we have three major, maybe four major 
transit projects in Maryland we would like to get funded. 
Obviously, without having long-term reauthorization it is hard 
to see those programs move forward. I can tell you, they are 
critically important to our national economy, to the Federal 
Government because of the Federal work force, but also 
critically important for all of our communities.
    It is also a matter of our environment, and we have heard 
that many times before, in modernizing our transportation 
system we also provide a much more efficient way to deal with 
our energy needs and can be friendlier toward our environment.
    So why aren't we doing this? What is the hurdle? We have to 
make the tough decision. The tough decision has to be made in 
conjunction with our colleagues on the Senate Finance 
Committee, and all the members, I happen to serve on both 
committees. But we need to have the revenue necessary to 
support a long-term surface transportation reauthorization. And 
we have to recognize the realities that the current revenue 
flow into the transportation trust fund is inadequate because 
it is based upon the gasoline tax. And the gasoline tax, we 
have been very effective in bringing down the volume, in regard 
to use of gasoline and more efficient engines, alternative 
ways.
    So we need to look at ways we can have an adequate source. 
I would hope we would be open to things such as using carbon 
fees or other ways to get the revenue necessary. I know that 
transportation is a bipartisan issue. Senator Inhofe has been 
one of the great leaders on moving forward on infrastructure. 
Senator Vitter also strongly supports this. So let's also try 
to find a way that we can get the revenues that are adequate, 
so that we can have the type of transportation reauthorization 
that is befitting the record of this committee and befitting 
our Country.
    Senator Boxer. Senator, thank you. You raise a good point, 
a few of our members do sit on Finance, which is going to be 
extremely helpful working with Senators Wyden and Hatch, who 
both have expressed interest in working with all of us.
    So now we are going to turn to Senator Sessions. And I want 
to remind everyone we have four votes, I believe it is four 
votes, at 11:30.

           OPENING STATEMENT OF HON. JEFF SESSIONS, 
             U.S. SENATOR FROM THE STATE OF ALABAMA

    Senator Sessions. Madam Chair, thank you for the hearing. 
It is important. Our infrastructure situation is facing a 
financial challenge in the future, and we are all worried about 
it. I believe it represents a valid, legitimate expenditure of 
Federal dollars. A lot of things we do around here are not 
valid and legitimate Federal interest. But I think certain 
infrastructure projects certainly are.
    We had the Director of Office of Management and Budget 
testify before the Budget Committee yesterday. Just for 
example, today, he testified, that last year interest on the 
debt that we pay out of our revenue that comes in was about 
$230 billion. He projected last year at the end of 10 years 
that would rise to $830 billion. This year he says in 10 years 
from today that annual interest payments will be $890 billion 
in 2024. This is a stunning diversion of money from productive 
use to an unproductive use. And the result, and a big part of 
the problem is the huge deficits we have been running up in the 
last few years. We have almost doubled the deficit in a few 
years. We will have doubled the deficit since 2007.
    So I know everybody wants to spend money. And I know you 
all have projects you want to spend. But Mr. Elmendorf told us 
that we are on an unsustainable path. You will hear that 
deficits are going down. They will go down for the next 2 
years. But after that, they start an uncontrolled, steady, 
increase every year, and the deficit in the tenth year will be 
a trillion dollars, again.
    So we are in a real difficult place. I just would say to 
you, everybody comes before us with good projects they want to 
spend money on. I would say to you, those who believe in 
highway and infrastructure should never forget how you were 
taken to the cleaners in the Stimulus Bill. We spent $840 
billion on the Stimulus Bill. Only 40 of it went to roads and 
bridges. It went to every kind of social program. And Mr. 
Elmendorf told us when it passed that you will see an increase 
in GDP in the short run, but over 10 years, carrying another 
trillion dollars in debt will actually reduce GDP over 10 
years.
    So I just would say to you, colleagues, and to the 
witnesses today, we have a big challenge before us. If we don't 
watch it, we can put us in a position where we have another 
financial crisis and Mr. Elmendorf warned us that could happen. 
We are in a danger area, our debt situation is in the red zone. 
So Madam Chair, the bill we passed last year, I think we stayed 
within reasonable limits in the budget. I know you tried to do 
that, and Senator Vitter worked hard on it, Senator Inhofe. And 
we were able to maintain a level of funding at minimal level we 
thought was necessary.
    So I just would say, that is going to be an even bigger 
challenge this year. I look forward to working with you.
    Senator Boxer. Senator, same here. I happened to be here 
when we did balance the budget. And I think we can it again if 
we are smart about it. But I think the important thing about 
highways is we have that self-sustaining trust fund, which is 
so critical. I have always supported that. That is operational, 
we spend what we take in. We have to be smart about it, I agree 
with you. Of course we have long-term problems we have to deal 
with.
    So it is my pleasure now to call on the ranking member of 
the subcommittee that is going to work so hard on this, Senator 
Barrasso.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Thank you very much, Madam Chairman and 
Ranking Member Vitter, for holding the hearing. I appreciate 
and share your commitment to ensure that the Highway Bill 
program continues. I also want to thank our panel for being 
here today to testify.
    When we can get the business and labor communities at the 
same table, I think that sends a very strong message to all 
Members of Congress and both parties that this program must 
continue. The Highway Reauthorization is truly, to me, a jobs 
bill. We need more red, white and blue jobs in States like 
Wyoming, California, Louisiana and all across the Country. I 
think setting up roadblocks on construction projects with 
excessive red tape doesn't really create meaningful jobs that 
we need all around America.
    For our State departments of transportation and for 
contractors, the highway program is already complicated enough. 
We need a program that cuts down on burdensome paperwork and 
puts people back to work. The Highway Trust Fund needs a 
solution that is reliable and responsible.
    The question before us is how do we accomplish this in a 
fiscally responsible manner. In order to meet the highway 
system's national needs, rural States must have flexibility to 
use Federal dollars that serve the national interests. We need 
to protect the taxpayer and ensure our States can continue to 
execute their transportation plans.
    Wyoming, like many of our other rural States, is a bridge 
State. It is critical that we maintain our Nation's bridge 
States that move the flow of commerce across America. So Madam 
Chairman, I hope this committee will hold more hearings on the 
implementation of MAP-21, and as ranking member of the 
Transportation and Infrastructure Subcommittee, I look forward 
to bringing the rural western perspective as we write the next 
reauthorization bill.
    Thank you, Madam Chairman, Ranking Member Vitter, for your 
leadership in holding the hearings.
    Senator Boxer. Thank you, and thank you for your leadership 
as well.
    Now it is your time, so let's get right to it. We are very, 
very pleased with this panel and we call on Tom Donohue to 
begin, from the Chamber of Commerce, President and CEO.

           STATEMENT OF THOMAS J. DONOHUE, PRESIDENT 
               AND CEO, U.S. CHAMBER OF COMMERCE

    Mr. Donohue. Thank you very much, Chairman Boxer, Ranking 
Member Vitter and distinguished members. We appreciate that so 
many are here.
    As many of you said this morning, reauthorization of MAP-21 
promises to be a difficult fight. But it doesn't have to be. In 
fact, there is a broad consensus on a number of fundamental 
principles. We all agree that our infrastructure system is a 
critical national asset, that it drive growth, jobs, safety, 
mobility, trade and enhanced global competitiveness. We all 
agree that we are running out of money to fund the system. We 
all agree that the Federal Government must take a leading role 
in making sure our infrastructure system contributes to a 
strong economy.
    We all agree we need a predictable, stable and growing 
source of revenue for today, an immediate funding solution for 
tomorrow and in the long term, we need an expanded and new 
system. When you look at the big picture, the simplest, most 
straightforward and most effective way to generate enough 
revenue is by increasing Federal gasoline and diesel taxes. 
Remember, it is 19 years or 20 years since we increased the 
Federal diesel tax. The gas tax, and this is what I was going 
to say, has not been increased since 1993. Cars are more fuel-
efficient, trucks are much more fuel-efficient. I know 
something about that, you will remember. People are driving 
less and inflation has eaten into purchasing power.
    As a result, the Highway Trust Fund is simply going 
bankrupt. We are already borrowing billions of dollars from the 
general fund. Next year there will be a $13 billion cash 
shortfall and by 2020, it could be as much as $100 billion. 
Even here, that is a lot of money.
    A moderate increase in the gas tax phased in over time 
would provide the necessary funding, preserve the important 
user pays principle and provided needed stability. How do we do 
that? First, let's start by having some courage and showing 
some leadership. For once, let's do what is right, not what it 
is politically expedient.
    Second, let's educate the public and your fellow lawmakers. 
Polls show opposition to gas tax and increases are 
significantly overblown. A San Jose University researcher 
recently found that 58 percent of the public would support a 
gas tax increase if they knew where it was going and how it was 
going to be spent and it was going to be applied to building 
roads and bridges and transit systems. Voters want to know 
where the money is going and that it is not going to be wasted.
    Far too many people are unaware of the important reforms 
that eliminated earmarks and pork barrel spending long 
associated with infrastructure funding. Let me say 
parenthetically, occasionally it helped get a vote. But with 
that not here, we are going to have some really good arguments.
    So let's also be clear, well, I often thought after the 
committee decides what all of the issues they are going to 
fund, then the members ought to be able to pick one out, you 
know, to go home. But let's get into that another day.
    Let's also be clear about the consequences of decreasing 
these investments. It means higher costs for goods, more 
congestion, and increased accidents as well as reduced mobility 
and reduced competitiveness. Business is absolutely committed 
to aggressively pursuing this education effort.
    And third, let's get busy building political support. On 
this panel you have the combined support of business, labor, 
construction, shippers, regulators, and in addition, truckers. 
Yesterday I had a meeting with the leaders of the American 
Trucking Association and the leaders of the AAA. They would 
significantly support a modest and thoughtful increase in the 
gasoline tax. Add that to the people who are here, this is 
getting to be a rather supportive group.
    It is interesting to note that last year six States, three 
with Republican Governors and three with Democratic Governors, 
enacted bills to increase their overall State fuel taxes. The 
sky didn't fall and their economies have not collapsed. Both 
Republican and Democratic Presidents have approved modest gas 
tax increases, including Ronald Reagan. So it can be done. 
Increasing the gas tax and fuel tax is the right answer. It is 
tough, but it is doable.
    Now, let's keep in mind that public money is only part of 
this equation. We must increase private investments as well. 
The private sector is prepared to pump as much as $250 billion 
into public-private partnerships, or P3s, if only certain 
barriers would be removed. We also must continue to 
aggressively root out waste in the system, which members 
indicated is underway, much of it caused by permitting delays 
and obstacles, as well as to make sure funds are spent on 
genuine priorities. Long term, the Chamber is willing to 
entertain different proposals for new and additional public 
funding mechanisms. However, currently, we don't see any way to 
support any proposal that eliminates the Federal role, 
undermines the user pay principle or unfairly singles out 
specific industries to foot the bill.
    Very quickly, a couple of quick thoughts in conclusion. We 
know that won't work. Scaling back or eliminating a dedicated 
source of Federal funding means greater congestion, higher 
transportation costs, more accidents and poorly maintained 
roads. If we give up on the Highway Trust Fund and rely on the 
general fund, we will never be able to execute long-term 
capital projects. We would have to cut other programs and 
engage in more deficit spending, and we would have to debate 
funding every single year.
    So I believe, Madam Chairman, devolving responsibility to 
the States means we will lose our national system. None of 
these approaches supports a growing sustainable source of 
funding. We need to pass a long-term authorization and the 
people at this table are ready to help you. Thank you very 
much.
    [The prepared statement of Mr. Donohue follows:]
   
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    Senator Boxer. We greatly appreciate that. And it is my 
honor to introduce Mr. Richard Trumka, President of the AFL-
CIO.

       STATEMENT OF RICHARD L. TRUMKA, PRESIDENT, AFL-CIO

    Mr. Trumka. Thank you, Chairman Boxer and Ranking Member 
Vitter, for having us appear before your committee today.
    Three years ago, Tom and I appeared before this committee 
asking for reauthorization of the Surface Transportation Bill. 
And since then, he and I have spent more time than either one 
of us would like to admit trying to get this done. While we are 
not quite ready to schedule vacations together yet, we really 
are willing to come together and anxious to come together to 
get this important issue solved for the good of the Country.
    Because reauthorization of the Surface Transportation Bill 
has been the most important jobs legislation that Congress 
considers. It is a very, very big priority for us. While the 
economy has improved, job creation remains sluggish. The 
construction sector alone is down 1.6 million jobs from pre-
recession levels. So we not only need jobs, but good jobs. It 
is estimated that each billion dollars of Federal investment in 
transportation creates 35,000 well-paying jobs, the type of 
career jobs that can support a family, a child's education, a 
secure retirement and a middle class life. These investments 
not only create jobs, but spur economic growth, ensure our 
Country's long-term economic global competitiveness, and 
improve the quality of life of our citizens.
    For those in Congress still pushing an austerity agenda 
when it comes to infrastructure, let me just say this. If your 
house has a leaky roof, not fixing it won't save you any money. 
Like the leaky roof, delaying needed infrastructure investments 
will only cost us more in the long run, not less.
    I recently traveled to China. I was stunned at the speed at 
which our largest competitor is progressing. China has been 
investing heavily in its infrastructure and the results are 
pretty dramatic. During my trip to Shanghai, I visited the 
Yangshan deepwater port, the world's largest and busiest 
container shipping port. The port, like the high speed trains 
that took me quickly and efficiently between China's cities, is 
a key investment in China's efforts to upgrade its 
infrastructure. It helps them keep up with the Country's growth 
of exports.
    To get to the port, I traveled on a six-lane bridge that is 
20 miles long, connecting Shanghai to the islands where the 
port is located. The bridge was completed in two and a half 
years, 20 miles of six-lane bridge over the China Sea to an 
island in two and a half years. And it employed literally 
thousands, thousands of workers.
    Prior to the project, nothing was there but a sleepy 
fishing village with some islands off in the distance. The 
first phase of the project opened in 2004, and by 2013, China 
had accomplished its goal of having the world's largest port. 
You might say the same thing about high speed rail. We both 
agreed that we would do high speed rail a few years ago. Right 
now the U.S. has not one single mile of high speed rail. And 
the Chinese move more people than our entire domestic airline 
industry by high speed rail right now.
    So America can do it. We can do it, and we can do it 
better.
    Now, I didn't come here today to rehash all the data 
regarding our Nation's infrastructure needs. Quite frankly, the 
facts have been reported. They have been studied and they have 
been discussed to death. The conclusions are always the same: 
infrastructure investments are vital to job creation, economic 
growth and global competitiveness. What remains to be 
determined is whether that information will be acted on and 
what kind of Country we will leave to our children and our 
grandchildren.
    The Highway Trust Fund is at a crossroads. Failure to act 
will mean our transportation system will decay further. 
Construction workers will stay on the bench. Supply chain and 
transit workers will lack steady work and our economic and 
global competitiveness will be diminished.
    Now, many funding ideas have been proposed, but few of them 
have been acted on. Other proposals have limited application. 
That leaves the fuel tax or some variation of it as the main 
source of funding. Raising the revenue will not be easy, 
regardless of where it comes from.
    But to be blunt, we can't afford to bury our heads in the 
sand. A bridge that is deficient today will not be any better 
tomorrow. Congress must come together to enact a robust and a 
long-term authorization. If business and labor can come before 
you united on this issue, and we are united on this issue, 
despite our sharp disagreements on a variety of other matters, 
I think that should tell everybody something and tell it very 
loudly.
    We need to be the America that can, not the America that 
can't. We are ready to help in a bipartisan way to get that 
done because it is so absolutely essential for the well-being 
of our Country and its economy.
    Thank you very much, and we look forward to your questions.
    [The prepared statement of Mr. Trumka follows:]
 
 
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
   
    
    Senator Boxer. Thank you very much, Mr. Trumka.
    Our next speaker, I want to say congratulations, is the new 
President of the American Association of State Highway and 
Transportation Officials. He is also the Secretary of the 
Kentucky Transportation Cabinet. We are very pleased to meet 
you, Mr. Hancock.

STATEMENT OF HON. MIKE HANCOCK, PRESIDENT, AMERICAN ASSOCIATION 
   OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS; SECRETARY, 
                KENTUCKY TRANSPORTATION CABINET

    Mr. Hancock. Good morning, Chairman Boxer, Ranking Member 
Vitter and distinguished members of the committee.
    Thank you for the opportunity on behalf of AASHTO and the 
State DOTs to share our views on the importance of robust 
Federal investment in surface transportation, the potential 
near-term impacts of the impending cash shortfall in the 
Highway Trust Fund and the longer-term impacts associated with 
uncertainty and instability of the Highway Trust Fund. I will 
have to say I am very encouraged by the remarks I have heard 
this morning.
    I would like to share two points with you. First, the 
threat to the States, the construction industry and the overall 
economy is real. It is even closer than originally estimated. 
We could face serious economic disruptions as early as this 
summer if USDOT delays reimbursements to the States for active 
projects already underway.
    Second, unless Congress acts to either increase the Highway 
Trust Fund revenues or provides additional general fund 
support, the States will be unable to obligate any new Federal 
funds in Fiscal Year 2015. In both cases there will be 
immediate and direct impacts to the States' economies with lost 
jobs and permanently shuttered businesses. And there will be 
substantial additional economic, social and environmental costs 
associated with canceled or delayed projects.
    If Congress does not act, the States, even with local and 
private partners, simply cannot generate sufficient funds to 
fill the infrastructure funding gap.
    The Federal Highway Program apportions about $40 billion a 
year to the State DOTs for roads and bridges. However, actual 
Federal dollars are not provided up front, but rather when the 
work is completed and the States submits a request for 
reimbursement. Reimbursements to the States are made daily. On 
January 15th, USDOT Secretary Fox announced that the Highway 
Trust Fund's highway account is likely to run out of money in 
August. To prevent insolvency, FHWA may stop reimbursing States 
on a daily basis and begin reimbursing once a week, once every 
2 weeks or even once a month. A similar slowdown in 
reimbursements happened in 2008, forcing the States to delay 
payments to contractors. While Congress took care of the issue 
5 years ago with the general fund transfer, States are 
concerned about the impact of the same situation happening 
again as early as this summer.
    If a similar scenario happens this year, the contractors, 
who many rely on prompt payments from the State, may be unable 
to pay their employees, subcontractors and suppliers. For some 
construction businesses and suppliers, which survived the 
recession but are still operating on the slimmest of margins, 
this could simply be the last straw.
    When AASHTO testified before this committee last September, 
we thought the Highway Trust Fund would stay solvent through 
the end of Fiscal Year 2014. But it now appears that Congress 
will have to act before the August congressional recess to 
ensure that the Highway Trust Fund will have enough money to 
reimburse the States for past commitments.
    As Congress considers ways to address the short-term crisis 
of not being able to pay for projects that are already 
committed, it should also consider a long-term solution that 
keeps the Highway Trust Fund solvent well into the future. 
Without a long-term solution, States may not receive any 
additional Federal highway and transit funding in Fiscal Year 
2015. If new Federal highway funding is not available or 
Federal funding is not available in 2015, much-needed highway 
and transit projects in virtually every community and every 
congressional district will either be delayed or canceled 
outright. These are projects that underpin economic development 
and improve the quality of life. Cutbacks on contract lettings 
will mean missed opportunities to pare down the backlog of 
investment needs, causing a negative domino effect on the 
construction industry employment, exactly at a time when the 
industry is beginning to rebound after being one of the hardest 
hit segments in the recent recession.
    There is ample evidence, including what you have heard 
today, that shows that infrastructure investment is critical 
for long-term economic growth, increased productivity, 
employment, household income, exports and overall quality of 
life. Congress can address the long-term solvency of the 
Highway Trust Fund by substantially reducing spending for 
surface transportation or by boosting revenues or by some 
combination of the two. We and others have developed a long 
list of potential revenue options.
    We believe that at a minimum, we need an approach that will 
allow us to sustain MAP-21 investments levels as adjusted for 
inflation. We believe it is possible to reach this level 
without placing an unreasonable financial burden on the 
traveling public. Without action, there will be devastating 
economic impacts from the virtual elimination of the Federal 
surface transportation funding in 2015, and there will be 
further funding reductions in the years beyond. Therefore, we 
believe that the only solution is to find and implement a 
viable set of revenue solutions that will prevent this summer's 
highway account cash shortfall and ensure the long-term 
solvency of the Highway Trust Fund.
    AASHTO looks forward to working with you to address this 
critical situation and we very much appreciate the opportunity 
to testify before you today and look forward to your questions. 
Thank you.
    [The prepared statement of Mr. Hancock follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    Senator Boxer. Thank you so much.
    Now it is my pleasure to introduce Dr. T. Peter Ruane, 
President and CEO, American Road and Transportation Builders 
Association and a key ally of ours as we worked through the 
last highway bill.

STATEMENT OF T. PETER RUANE, PH.D., PRESIDENT AND CEO, AMERICAN 
          ROAD AND TRANSPORTATION BUILDERS ASSOCIATION

    Mr. Ruane. Thank you, Madam Chairman. Chairman Boxer, 
Senator Vitter, thank you for inviting the ARTBA again to 
participate in this hearing. I want to also thank you at this 
point for our leadership on MAP-21 as well as the current WRDA 
legislation.

    One number alone provides ample evidence of the value of 
the Federal Surface Transportation Program. Today trucks carry 
freight worth more than $11 trillion over the Nation's roads 
every year. And more than three quarters of that truck travel 
occurs on the roads that comprise the Federal aid system. 
Without the Federal investment in these roads, we put trucking 
mobility and productivity and that $11 trillion in annual 
economic activity at risk.
    We believe one of the Federal program's biggest problems is 
that government at all levels, all levels, does a poor job of 
telling the American public how their Federal gas and diesel 
tax dollars are invested each year. We believe the public would 
be impressed and widely support this Federal program if they 
knew the full story.
    I asked our economic team to find out how the public's 
Federal gas tax dollars were put to use in 2012, a year that 
did not include any stimulus money. Unfortunately, it took a 
Freedom of Information request and sophisticated computer 
analysis of literally millions of data points to provide the 
project information detailed in our written testimony. Here are 
the highlights, and it is high time the public starts hearing 
about them.
    In 2012, the Federal program helped fund 12,546 capital 
improvement projects, 7,000, and some road, 2,400 bridges, 
2,800 road safety, all focused on the system that moves most of 
that $11 trillion in economic activity just mentioned. And the 
12,000 does not include right-of-way or engineering projects. 
These are projects in every State that can be identified by 
name, location, and how much was invested.
    But all the public knows is that the system is not nearly 
as safe as it could be, they waste precious time in traffic 
congestion and car and truck damages are caused every day due 
to unacceptably high percentage of poor road conditions. And 
the major reason for the system's problems is that we have a 
2014 program that is operating on 1993 value dollars. As you 
have already heard, in roughly months, according to the CBO, 
the Highway Trust Fund will be unable to support any investment 
in new projects. And 2012 is a guide. That means that more than 
12,000 highway, bridge and safety capital projects across the 
Nation on the routes most important to our economy could be 
lost. ARTBA continues to advocate generating new recurring user 
fee revenue to support highway trust fund investments as the 
most straightforward solution or Congress could find additional 
resources elsewhere in the Federal budget to stabilize this 
trust fund as was done to support MAP-21.
    CBO data shows that will require, by the way, on average, 
$16.3 billion annually just to preserve existing levels of 
highway and transit investment. By comparison, over a 2-year 
period, the recent bipartisan Budget Act of 2013, the Murray-
Ryan budget deal, reallocates resources to increase the non-
defense discretionary spending cap by an average, ironically, 
of some $16 billion a year. Here is where the announcer would 
say, spoiler alert.
    That means that as illustrated in Figure 4 in our 
testimony, that fixing the Highway Trust Fund without 
generating new revenues would require the equivalent of 
Congress passing and the President signing a 2013 level Murray-
Ryan budget deal every year, every year, just to keep the 
highway and transit program where it is no. That is one painful 
alternative scenario.
    Thank you very much.
    [The prepared statement of Mr. Ruane follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
 
    Senator Boxer. Thank you so much.
    And it is my pleasure to welcome Jay Timmons, President and 
CEO of the National Association of Manufacturers. Welcome.

     STATEMENT OF JAY TIMMONS, PRESIDENT AND CEO, NATIONAL 
                  ASSOCIATION OF MANUFACTURERS

    Mr. Timmons. Thank you, Chairman Boxer, Senator Vitter, 
other members of the committee.
    Infrastructure matters greatly to manufacturers. It matters 
during every step of the production process, from receiving 
inputs to shipping our products to markets at home and to our 
customers abroad. In addition, manufacturers are vital 
suppliers to the transit and road-building industry, providing 
rolling stock, engines, concrete, machinery, aggregates, 
barriers, signs, safety equipment and other materials. Every 
dollar spent, and I know there have been a lot of statistics 
here today, but they all do matter, every dollar spent in 
construction generates 39.5 cents in manufacturing. For 
manufacturers, infrastructure is indeed a competitiveness 
issue.
    But unfortunately, our Nation's 20th century 
infrastructure, and some of it is in fact even older, is not 
meeting the needs of our 21st century economy. I hear concerns 
about the State of our infrastructure from NAM members 
constantly and consistently, from the world's largest multi-
nationals to family businesses up and down main streets all 
across our Country. They all recognize that our aging 
infrastructure is a significant impediment to our Nation's 
competitiveness and our ability to maintain our mantle of 
economic leadership.
    Last year, the NAM partnered, as the Chair noted, with 
Building America's Future to survey manufacturers about their 
perspectives on the State of infrastructure in the United 
States. As the Chairman referenced in her opening statement, 
some 70 percent told us that America's infrastructure is in 
fair or poor shape and needs a great deal or quite a bit of 
improvement. And manufacturers recognize the Federal 
Government's critical role in funding the Nation's 
infrastructure as well, 67 percent say that infrastructure is 
so important that all options to fund it must be on the table.
    Two thirds doubt that it is positioned to respond to the 
competitive demands of a growing economy. That is important, 
because manufacturers rely on a reliable and efficient 
infrastructure to reach growing markets abroad. But as our 
survey demonstrates, reaching these new markets is not easy for 
manufacturers in the United States. Roads, bridges, ports and 
more are in dire need of repair and modernization.
    On behalf of our more than 12,000 members, the NAM urges 
lawmakers to address these challenges and adopt a multi-year 
fully funded surface transportation bill that offers certainty 
and support for infrastructure projects, that improves safety, 
facilitates trade and creates jobs. Equally as important, we 
believe Congress must bring the Federal Highway Trust Fund to 
an improved condition of solvency and long term sustainability.
    The need to keep the Highway Trust Fund solvent extends far 
beyond State departments of transportation and road builders. 
Funding for roads, bridges and transit systems provides great 
value and represents an investment in our economy and our 
global competitiveness. Manufacturers have frankly been 
frustrated of late by policymakers who meet our calls for 
increased investment with growing skepticism.
    As we have seen with previous infrastructure bills, delays 
and multiple extensions are commonplace and send a message that 
the United States is simply not serious about growth and 
competitiveness. I know it is a tall order in our political 
environment that is so highly charged today, but America's 
manufacturers need bipartisan leadership to help fix the 
problem. Frankly, we are very encouraged by the signals that we 
are getting from this committee.
    We need to move past the debates about the Federal 
Government's role in infrastructure investment. The States 
alone cannot address the deteriorating condition of our roads 
and our bridges or remedy the $101 billion cost associated with 
traffic congestion. Manufacturers are counting on Congress to 
fulfill its well-established responsibility of facilitating 
commerce in the United States.
    Chairman Boxer, no pun intended, but we have a long road 
ahead of us. We really appreciate the committee's attention to 
these important issues.
    [The prepared statement of Mr. Timmons follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
   
    
    Senator Boxer. Thank you. I cannot thank each of you 
enough.
    I am going to ask unanimous consent to place in the record 
letters, one from the Associated Equipment Distributors. They 
urge immediate action to ensure the Highway Trust Fund's long-
term solvency. And the second is the Economic Importance of 
Maintaining Federal Investment in our Transportation 
Infrastructure from the International Bridge, Tunnel and 
Turnpike Association. Without objection, I will put those in 
the record.
    [The referenced material was not received at time of 
print.]
    Senator Boxer. And we can each have 6 minutes to ask you 
some questions. My first question is really an unusual one, 
because it is just a yes or a no from each of you. But it is 
not a trick question.
    Will each of you be willing to speak directly with Senators 
Wyden and Hatch, whether it is on the phone or in person, as 
soon as possible?
    Mr. Donohue. Yes.
    Mr. Trumka. Yes.
    Mr. Hancock. Yes.
    Mr. Ruane. Yes, already have.
    Mr. Timmons. Yes.
    Senator Boxer. Pete, second round, we get to do it again. I 
can't tell you how important that is, because they have so much 
on their plate and they want to be helpful. But I am not so 
sure that they have scheduled a hearing, because we have the 
change in the leadership there. So that would be fantastic.
    And would each of you agree that what Mr. Timmons said is 
right, that we need certainty with a multi-year bill? Would 
each of you agree that we need certainty with a multi-year 
bill?
    Mr. Donohue. Yes.
    Mr. Trumka. Absolutely.
    Mr. Hancock. Yes.
    Mr. Ruane. Unquestionably.
    Mr. Timmons. I agree with myself, yes.
    [Laughter.]
    Senator Boxer. Well, around here, sometimes folks don't. So 
it gets really great.
    So Mr. Trumka, we are all aware that the recent global 
recession ravaged many sectors of the Nation's economy. I 
remember being with you at a rally in Los Angeles where 
construction industry workers were, I mean, just so hard hit 
and worried about a future for their families. Could you 
describe for us the economic environment your members currently 
face to help put in context the consequences of failing to 
address the Highway Trust Fund's pending insolvency?
    Mr. Trumka. Let me start on the macro sense and say, 6 
years into this so-called recovery, we are still at an 
unemployment rate that is higher than the highest point of the 
2001 recession. So 6 years in, we are still higher than it was 
in that recession. We have 1.6 million construction jobs, as 
noted in my testimony, that are gone from pre-recession levels, 
we haven't filled them yet. In some areas, unemployment still 
hovers in the 20 percent area. We still have people working 
reduced hours. The rest of that reduced hours is a strain on 
retirement plans and health and safety plans and health care 
plans.
    Our members are struggling and we are losing skilled 
workers because they can't make a living, there is no planning, 
no ability to plan ahead and have a future. They are still 
hurting plenty and that is why we need this bill, not just to 
be a patchwork or a short-term solution, but a long-term 
solution so that employers can plan, so that States can plan, 
so that we can do long-term projects that the Country really 
absolutely needs and have the assurance that the money is going 
to be there to be able to complete them.
    Senator Boxer. Thank you. Thank you for painting us that 
picture.
    I am going to ask Dr. Ruane here, because from the business 
side, and you represent the builders, could you discuss how the 
transportation industry would be affected if no new projects, 
over 12,000 projects, using 2012 as an example, that is how 
many new projects we funded in 2012, if we didn't have that in 
Fiscal Year 2015, put a human face on the businesses that you 
speak for.
    Mr. Ruane. The impact of that kind of scenario would be 
devastating. We are already at over 10 percent unemployment in 
that sector right now as we sit here today, down from where it 
was five or 6 years ago, but still double digit unemployment. 
The metric that is used often is 35,000 jobs per billion. We 
lose that program in Fiscal Year 2015, you will literally see 
hundreds of thousands of workers lose their jobs, they will not 
invest. And by the way, that is already happening in the 
marketplace, where a number of States have announced their 
intention, it was cited in Mike's testimony, where a couple of 
States have already publicly said that. And so people are not 
hiring now. They are already pulling back, even though the 
height of the construction season is coming up and most of the 
Country, they are holding back because of the uncertainty of 
the marketplace right now with what the Congress is going to do 
with reauthorization. And most importantly, the current Highway 
Trust Fund situation.
    Senator Boxer. That is extremely alarming that already we 
are seeing this. That is why Senator Vitter and I are really 
working hard to move quickly to restore some faith out there, 
and why it is so important for us to work together with the 
Finance Committee over here. I note, Congressman Shuster wants 
to move as well.
    So I would turn to Mr. Hancock, from Kentucky's 
perspective, as well as all of the States that you represent in 
your new position. How important is it for State departments of 
transportation to have stable, reliable and predictable funding 
levels for 5 years or more?
    Mr. Hancock. Madam Chairman, it is incredibly important to 
the States. The States simply cannot functionally plan in an 
environment where the target changes day by day in terms of 
funding. As you probably know, I am quite certain you do, it 
takes years to get a project off the ground and actually to 
construction and being built. If funding is a question every 
step of the way, it takes even longer.
    So the States really are having difficulty with adequately 
planning, knowing when the money is coming, knowing when we 
will have the ability to put the money to work and tracking 
that.
    Senator Boxer. Thank you. So my time has run out, but I 
have to finish with Mr. Donohue. Why is this issue so important 
to the business community that the Chamber would take the 
position of supporting raising user fees for transportation? 
That is unusual. Could you explain why you are driven to do 
this?
    Mr. Donohue. I don't think it is unusual for the members to 
the Chamber of Commerce to support these user fees. The people 
who run the trucking industry understand, they run 400 billion 
miles or something like that with 3 million big trucks every 
night. They understand if they don't have the facilities to do 
that in a safe and effective and product way, they are behind.
    The AAA has taken I think a very enlightened position, 
recognizing that people are driving all over the place. So as 
we have heard today from the panel, the business community 
provides the resources to build the facilities, the roads, the 
bridges, the ports. The business community builds them, the 
business community lives on them. And if you want to look for 
the single biggest improvement, in my opinion, in U.S. 
efficiency in recent time, it has been what we have been able 
to do in the supply chain, from raw materials to finished 
products and everywhere in between, not only capital goods but 
also information, energy resources. This is for the business 
community, whether you are in the tech end, you are in the 
service end or you are in the capital goods and manufacturing 
end, if you can move it, you can do it.
    Senator Boxer. Thank you. It is the goods movement that is 
so critical, because we all know what happens when it takes a 
long time. Thank you.
    Senator Vitter.
    Senator Vitter. Thank you, Madam Chair, and thank you all 
again. As I suggested in my opening statement, we have been 
hard at work for some time discussing a bill to try to move out 
of this committee as soon as possible. The idea would be to 
deal with those issues under our jurisdiction in an aggressive 
way, in a way that helps rebuild trust in the trust fund and 
then to really help incentivize the Finance Committee to do the 
tougher work on the finance side and be our full partner in 
completing that bill.
    So with that process in mind, let me ask a few questions. 
Dr. Ruane, first of all, thank you and your organization, as 
opposed to FHWA, for producing very good data which you have 
appended to your testimony, about projects in each State 
impacted by the trust fund and Federal aid. One problem is, you 
all have to spend hours and hours and hours producing that 
data. It seems to me that data should be readily available 
through the program and to make it transparent and clear what 
the trust fund does or doesn't do.
    Would you agree with that, there are reforms you think can 
be made to make the activity under the trust fund far more 
transparent?
    Mr. Ruane. I absolutely agree. It is really tragic that one 
would have to use the Freedom of Information Act to get such 
information. They have that information going back, and I am 
not here to unfairly criticize any government agency. But you 
would think that they would want to get that information out 
there aggressively and tell the story. We make a recommendation 
in our testimony specifically, you recall the effort that was 
made by the Administration and various agencies in telling the 
story under the stimulus program. There was routine and regular 
commentary on what was being done, the various projects around 
the Country. We say that should be pro forma, that should be 
routine. They should be celebrating these investments, these 
20,000 plus projects every year and telling the public where 
these resources are going and what they are achieving. Most 
importantly, what they are achieving.
    So one should not have to use a FOIA request to get that 
information. It ought to be out there. Because it is an 
incredible story of what this is accomplishing in our economy 
and in our Nation.
    Senator Vitter. I certainly agree and will continue to push 
that. By the way, there is a specific provision in MAP-21, 
unfortunately FHWA hasn't responded to that, hasn't done the 
report yet. So we need that greater transparency.
    Mr. Hancock, I am real concerned, as are many of my 
Republican colleagues about the EPA and a new proposed rule 
about Federal jurisdiction under the Clean Water Act. I think 
this poses a threat of dramatically increased permitting 
requirements and decreased flexibility on transportation 
projects. I am also concerned that the rulemaking may even 
proceed before peer reviewers even review it. That is supposed 
to be a key part of the process.
    Are your members concerned about this? Do you have any 
thoughts about this?
    Mr. Hancock. We have not actually seen that 404 permitting 
rulemaking yet. But we are very much concerned about it, 
because we have been told that it affects roadside ditches as 
sources of runoff area to be controlled or whatever. Most of 
those ditches were built as we built our road system. They are 
not intermittent streams, per se. So yes, we are very, very 
interested in that and looking forward to hearing from Federal 
Highways.
    Senator Vitter. Mr. Timmons, thank you for your testimony. 
Can you expand on just a bit, and does NAM have an estimate of 
the cost advantage or disadvantage vis-a-vis other nations 
related to infrastructure? What path are we on regarding that? 
I presume it is going to be a cost disadvantage in terms of 
global competitiveness.
    Mr. Timmons. I don't have a specific number for your, 
Senator, but I can tell you anecdotally that there is certainly 
a disadvantage when some of the other folks here have been 
talking about what our major competitors are doing with regard 
to infrastructure projects. Those projects do allow more goods 
to make it to market much more efficiently.
    There is a general, however, a 20 percent cost disadvantage 
for manufacturers in this Country versus our major trading 
partners around the Country. It is because of several factors, 
infrastructure is not one of them, but that 20 percent 
disadvantage is after you take out the cost of labor, so we are 
talking taxes and regulation, going back to your question on 
the proposed rule from EPA on waterways, as well as other 
factors.
    So anything that detracts or adds to that disadvantage 
obviously hurts manufacturing in this Country.
    Senator Vitter. Thank you. A final question for Mr. 
Hancock. AASHTO was one of the first organizations out with 
your reauthorization priorities. I thank you for that. I assume 
that means you think there is room for Improvement reform, 
greater transparency to build, rebuild trust in the program. 
Can you expand on that and mention a couple of your priorities?
    Mr. Hancock. Sure. And we absolutely do believe there is 
room to improve. But I will say to MAP-21, we felt it was a 
major step forward. We were very pleased with the reforms that 
we saw there. There are some tweaks that likely will need to be 
made. But part of the issue right now is we haven't completely 
seen the rulemakings from Federal Highways regarding those. So 
we will be eagerly awaiting those and will have some comments, 
I am quite sure, that will tweak, not significantly.
    Senator Vitter. We will look forward to those. Thank you, 
Madam Chair.
    Senator Boxer. Thank you so much. I believe Senator 
Barrasso is next, followed by Senator Boozman.
    Senator Barrasso. Thank you, Madam Chairman.
    Mr. Hancock, following up on your previous testimony, and I 
talked a little bit in my opening statement about the 
roadblocks that are out there on construction projects in terms 
of red tape, which makes things more costly, doesn't really 
create the kind of meaningful jobs that we are trying to 
create. Could you talk a little bit about recommendations you 
might have to kind of further accelerate project delivery?
    Mr. Hancock. There are a number of activities that are 
underway as we speak. We are working, Federal Highways has an 
Every Day Counts program that we are working very diligently 
with them to see brought forward. Also AASHTO itself, we have 
SHRP2 programs, our Strategic Highway Research Programs that 
involve projects that save time and get things done faster. So 
many, many things on the horizon that we see the value in doing 
this, and I promise you we will be sticking to our guns in that 
regard.
    Senator Barrasso. Anyone else on the panel want to respond 
to that in terms of actually how we can get the money moving 
more quickly?
    Mr. Ruane. Full implementation of the reforms in MAP-21. I 
think the committee, the Congress made some great changes to 
the legislation as part of that bill. It is just a matter of 
implementation. They have been underway, but they could be 
accelerated.
    Senator Barrasso. Anyone else?
    Mr. Trumka, you talked about in your testimony and 
highlighted a 20-mile, 6-lane bridge that I think in China took 
only 2 years to build, kind of from pen to pavement. The Vice 
President made a statement last week about going to LaGuardia 
Airport and said, if you take somebody there blindfolded at 2 
in the morning they are going to think they are in a Third 
World country. I would just ask if you could talk a little bit 
about, it would seem to me in the best case scenario to try to 
a project like you had outlined that you saw in China so 
successfully completed in a swift manner, it might take over 10 
years to kind of get that whole process done here.
    From your experience and travels, what can we do in the 
United States to really accelerate project delivery?
    Mr. Trumka. One thing I think is we can have some long-term 
predictability and planning. So we need a long-term bill so 
that people can actually plan, start the process, have some 
confidence that it is going to follow through. If you are 
talking about private-public partnerships that are out there 
that offer some real potential, that is not going to happen 
without the ability to plan and be predictable and go forward.
    Also I think it is just us having the will to say that as a 
Nation, we are going to do something. When we decided to go to 
the moon, we got the Nation on a footing. Our infrastructure, 
according to the World Economic Forum, has dropped from seventh 
in the world to fifteenth in just 5 years. And it will continue 
to drop. The American Society of Civil Engineers says we get a 
D plus, we have a $3.6 trillion deficit to fill to get us back 
to where we need. The DOT says that a third of our roads are 
now in poor or mediocre condition. We need as a Nation to say, 
we are going to be the most competitive when it comes to 
infrastructure and understand that investment today is going to 
reap tremendous benefits down the road.
    I think us coming together, the Nation coming together like 
everybody up here has come together to say we need it, and then 
to have the political will to go forward I think is what we 
need. It is just the determination to say we will do it and 
then get together and do it. I applaud the members of this 
committee, because you understand the importance to the Country 
of infrastructure and us maintaining our infrastructure, 
whether it is a bridge, whether it is a road. I urge you to go 
further and think bolder and start talking about high-speed 
rail and other things, a grid system that doesn't waste 
electricity, a delivery system where you don't have leaks and 
seeps that drain gas and water and oil into the environment. 
All of those things could create jobs and make us competitive.
    I think the most important thing is for us to just have a 
vision and a will and make a decision to do it. When we decided 
to go to the moon, nothing could stop us. Same thing here. If 
we decide that we will have world class infrastructure to 
compete in a global economy, I have no doubt, Senator, that we 
can do it, and we can do it the best in the world.
    Senator Barrasso. Mr. Donohue?
    Mr. Donohue. When we decided to go to the moon, Senator, we 
had a compelling national interest and we didn't have all the 
regulators and lawyers and lawsuits that we have today. To go 
out and build a major project is preceded by permitting and 
zoning arguments and lawsuits. And by environmental lawsuits.
    By the way, I have no problem with looking critically at 
the environment. But repetitive lawsuits after lawsuits have 
been resolved. The reason we can't do things as quickly as 
others, one of the reasons, is because it takes so long to get 
a conclusion of all the permits, all the zoning, all the 
lawsuits. And we are talking years and years and years. And we 
all went to school, we studied, we had three parts to our 
Government, the executive, the legislative, the judicial. We 
never knew that we would live in a time that there was one part 
than all the others put together we never talked about, and 
that is the regulatory and litigation part that is absolutely 
strapping this Nation's ability to compete.
    Senator Barrasso. Thank you. Thank you, Madam Chairman.
    Senator Boxer. Thank you, Senator. And we turn to Senator 
Boozman.
    Senator Boozman. Thank you, Madam Chair. I do appreciated 
you and Senator Vitter having this hearing. I think it is 
really very, very important. We hear a lot about the 
partisanship that goes on in Congress, and yet in this 
particular area of this committee, when it gets into the 
environmental issues, there is differences of opinion. But 
there is no difference, very little difference of opinion in 
regard to our infrastructure, not only here but in the House 
also.
    It is interesting, I look at the panel and it is the same 
deal. We have the Chamber here, we have labor here, we have NAM 
and the road builders. All of you are strange bedfellows coming 
together as we all are, talking about the interests. I have 
real concern about the harsh winter, the fact that jobs are 
being affected right now because you simply can't get work done 
with these very cold sustained temperatures. Pretty soon, it 
sounds like already, the contracting is an issue. I know that 
we have had, this is not hypothetical in a sense, we have had 
this same situation occur in the past, and very definitely 
people quit letting contracts. So again, I am really concerned 
about that.
    The thing about infrastructure is that you create jobs when 
you do it. But the real economic thing comes about after they 
are built, with the increase in land values, all of the 
economic activity that comes about. I would argue that, and it 
is sad to hear the statistics now, but I think one of the 
reasons that we became the economic powerhouse that we have was 
the vision of the Eisenhower Administration and Congress 
getting the interState system put into place. So I am committed 
to doing anything I can to get this thing done.
    One thing I would like to ask Mr. Hancock, one of the 
frustrations we have, not only with this but with other things, 
our States are struggling right now. In an effort to try and 
push more money for infrastructure, there is a tendency at the 
State level then, and this is not true of Arkansas, we actually 
passed a half cent sales tax which again is something that 
other States need to look at doing and actually have defined 
projects and things and get those kinds of things done.
    But there is a real frustration, it seems like as you push 
more money out then the State backs up and they get this money, 
so then they can divert to prisons and schools and things that 
are very, very necessary. But the reality is you don't go 
forward. You just have more of the Federal Government 
shouldering the burden.
    Can you comment on that?
    Mr. Hancock. I would be more than happy to. It has been our 
experience in Kentucky that whatever Federal money has come, 
the State has stepped up with bond issues and other things and 
made additional moneys available as well. In Kentucky, we have 
actually been able to do a lot of major projects through that 
whole mechanism.
    But the one thing I would say, about 45 percent on average 
of the money that the states have to work with to build 
projects is Federal funding. That 45 percent constitutes more 
of the larger projects that we actually build. And so it is a 
critical piece of where we are. The States are doing a lot, and 
you have seen that in recent days with a number of States 
enacting new funding mechanisms and so forth. We applaud the 
States that have done that. We are certainly encouraging 
everyone to do what they must to find the money that is 
necessary to invest in transportation. But you are right, it is 
a difficult dance with State budgets and so forth.
    We find a lot for our colleagues that are very interested 
in spending more on transportation.
    Mr. Donohue. Senator, you made a great point about the 
harsh winter. When it is over and people can go back to work, 
it will lead to an infrastructure that is more seriously 
affected and more work to do.
    Senator Boozman. You make a great point in the sense that 
not only can they not do the work now, but with this freezing 
and thawing, it is going to be very, very difficult and there 
is going to be a tremendous amount of damage.
    How long doe it take for an average significant road 
project to get done now? Is it nine, 10 years?
    Mr. Hancock. We did a recent average of 7 years for a 
significant project.
    Senator Boozman. You mentioned, Mr. Trumka, the bridge in 
China. The thing that impressed me was the situation that we 
had in Minnesota when the bridge collapsed. That thing was 
rebuilt in a year. And that would have taken easily, in today's 
climate, 10 years or whatever.
    But instead of the agencies having an adversarial, 
``gotcha'` attitude, people worked together. Labor worked 
together, it was just the attitude of, we can get this done and 
get reopened. We essentially were able to do something that 
really was quite extraordinary.
    But I do think, and you all can be a tremendous help in 
this area, we do have to, with the limited resources that we 
have, not to skirt rules, not to get around them, to do it, but 
just have the agencies do things. We have put stuff in bills 
before and this and that, but really just to make the agencies, 
where they are talking together, they are doing it together. We 
need to have a goal as a Nation to cut that time in half or 
whatever goal we make.
    But that is a very doable thing. With inflation, the cost 
increase and things like that, it is something that would save 
us a tremendous amount of money.
    So again, thank you all. We appreciate your being here and 
certainly I am committed, the rest of the committee is 
committed to doing anything we can to help. Thank you.
    Senator Boxer. I just want to say to each and every one of 
you how much I appreciate your testimony today. I know that we 
are singing from the same book except when it comes to 
environment, which is typical and I understand it. But I 
honestly have to say that this transportation bill, in order to 
get out of here, is not going to be one big environmental 
rider. So let's be clear. Because we have to come together 
where we agree.
    And just ask the businesses and the citizens of West 
Virginia if they wanted a little more regulation on that 
chemical that spilled which is killing business, it is killing 
economic development right now, according to my colleagues who 
have talked to me about it.
    So I think what we need to do is find a sweet spot. We need 
to speed up for sure, and we have a lot of reforms, as I 
understand, that Dr. Ruane pointed out, in the last bill. We 
have to make sure they are working.
    Also, we have to understand that a great deal of the 
slowdown, Senator, is funding, too. Because sometimes the 
funding doesn't come through. That is why TIFIA is so 
important, and why I am so excited about TIFIA. Because the 
idea of TIFIA came from really the Los Angeles mayor at the 
time, Mayor Villaraigosa, who pointed out that they had this 
sales tax, but it was going to take them 30 years to build all 
the projects. But with TIFIA, we could change that to 10, 
because there is really no risk. The money is coming, but the 
Federal Government can step up front and move that money 
forward.
    I really appreciate all this. Do we have time to do another 
round? Go right ahead, Senator, I will withhold and finish 
later. Go ahead.
    Senator Sessions. Thank you. I had a couple of conflicts, 
everything happens at once.
    Mr. Donohue, I notice you called for increasing gasoline 
tax. Is it the position of the Chamber of Commerce that we need 
to be raising taxes to increase spending today?
    Mr. Donohue. We have not raised the Federal user fee fuel 
tax in almost 20 years.
    Senator Sessions. So you want to raise taxes on Alabamians 
who have to commute to work, and probably you would like to 
spend it----
    Mr. Donohue. Senator, whether you raise the tax or you seek 
the funds through some other means of Federal expenditure, the 
citizens of Alabama are going to pay for it.
    Senator Sessions. You proposed raising the tax.
    Mr. Donohue. Yes, sir, I did.
    Senator Sessions. Would it be acceptable to you if we found 
wasteful spending in Washington and reduced that to pay for the 
highways?
    Mr. Donohue. If you actually got the money. The longest 
sing-song in Washington in the history of my time here was 
waste, fraud and abuse. And we are going to get rid of it and 
use the money. But the money never shows up. But if you 
actually got the money, took it out of other budgets and put it 
there, I would applaud you.
    Senator Sessions. So you would support that, but that is 
not what you are testifying to in favor of today. Some of my 
people would probably rather increase the corporate tax rather 
than the gas tax. You wouldn't favor that, would you?
    Mr. Donohue. The corporate tax in this Country is far more 
than we pay anywhere else on a competitive basis. I think you 
should ask Billy Canary that runs the expanded and combined 
chambers of commerce in Alabama whether he could get his 
members to support a user fee to move their goods and their 
workers.
    Senator Sessions. So I guess I understand what you want to 
say. You want to raise, the Chamber of Commerce is testifying 
that you don't believe it is possible to cut spending and save 
the highway program without raising taxes. I want to get it 
clear.
    Mr. Donohue. Senator, I have played this game before. I 
think it would be very, very hard to do that in the next 7 
months, but if you can do it, I will vigorously support it.
    Senator Sessions. Well, good. I think that is what we 
should do. There are places that we can save money. I just want 
to know that, we would like to reduce the corporate rate. It is 
hurting America. It is hurting Mr. Trumka's employees. It is 
hurting economic development and job creation to have virtually 
the highest corporate tax rare in the world.
    Mr. Donohue. We certainly agree on that.
    Senator Sessions. We could totally support that. I was just 
teasing you a little bit about your supporting somebody else 
paying taxes, but not you.
    Mr. Trumka, in 2000, when the employment rate was around 4 
percent, the New York Times wrote an editorial opposing amnesty 
for then 6 million illegal workers in the Country and said 
``The AFL-CIO's proposal should be rejected. Amnesty would 
undermine the integrity of the Country's immigration laws and 
would depress the wages of its lowest paid, native born 
workers.'` The New York Times.
    Today the unemployment rate is 6.6 percent and the work 
force participation rate is the lowest it has been in 40 years. 
Wages are lower today than they were in 1999. Yet you have 
endorsed a bill that not only grants amnesty to 12 million 
illegal immigrants but also provides green cards to 20 million 
new legal immigrants.
    Senator Boxer. May I ask that my friend, and he is my 
friend, why are you talking about immigration? This is a 
hearing about the Highway Trust Fund. I have never quite seen 
this type of an attack on various members. I am confused about 
it. It does not help us.
    Senator Sessions. It is not an attack on a member. I am 
raising a question. But I didn't know we were strictly----
    Senator Boxer. Well, yes, we are. This is not the committee 
that does immigration reform. I could haul out reports that 
show that it is a great boon to our economy. I am not going to 
get into that. I would please ask you, and I think your 
question to Mr. Donohue was fair, it was tough, it was fair. 
But this is getting off topic. If you could just keep your 
questions to the topic at hand, it would mean a lot to this 
chairman.
    Senator Sessions. You are such a fair chairman that I will 
acquiesce in that and maybe I would submit a letter and Mr. 
Trumka could have a chance to respond. Because I know he has 
given a lot of thought to all the issues.
    Mr. Trumka. I would welcome that, Senator. I really would. 
I can tell you how those 6 million people or 12 million people 
with no rights, how it is driving down the wages of every other 
American out there. Until we fix that system, everybody is 
going to have less income. Less income, less taxes, less 
economic growth. So I look forward to that letter.
    Senator Boxer. I am glad we put this off to another day.
    [Laughter.]
    Senator Boxer. Go right ahead. And by the way, the votes 
are starting.
    Senator Sessions. Mr. Trumka, I will look at that. This 
legislation that cleared the Senate that you supported would 
dramatically increase the legal flow and not a significant 
impact in reducing illegal flow. I think it is beyond what the 
economy can absorb wisely but that is an issue for a different 
day.
    Thank you for your testimony. We just had the budget report 
yesterday of Mr. Elmendorf. It was sobering. He suggests we 
could have another fiscal crisis because our debt is reaching 
almost 90 percent of GDP, gross debt could reach over 100 
percent of GDP. We can't just tax our way out of this. We just 
can't keep raising taxes. So that would knock off the growth 
that we would like to have.
    Madam Chairman, again, you have led effectively on this, 
you and Senator Inhofe and Senator Vitter. I hope that we can 
come up with something that strengthens our infrastructure 
program in a fiscally responsible way.
    Senator Boxer. Senator, I certainly do hope so. And I would 
say this. This committee is going to deal with the 
reauthorization. What we heard from every member, when you 
aware at your other very important duties, is that we need 
certainty here, because businesses are, they don't know what 
the future holds.
    What I hope for is we can give a five, 6 year bill out of 
here. That is our intent. It will not deal with the funding, 
because that is a matter for Senators Wyden and Hatch and their 
committee.
    But it will lay this out. That is why it is so important 
that whenever ideas, and I have lots of ideas, one of them is 
to go after $350 billion uncollected taxes every year. I am 
sure others wouldn't agree with it. But there are many, many 
ways that we can get this trust fund going.
    Mr. Donohue makes an important point, it has to be real. It 
has to be real and it has to be certain. That is why the user 
fund, whatever it is, whether it is the gas tax, or vehicle 
miles traveled, it is not intrusive or it is a user fee at the 
refinery level, all of that will be a dedicated tax going into 
the fund. And because of our economic situation, we need to 
have this. Because if you are really worried about deficits and 
debt, which every single one of us is, and as I said, I was so 
happy that I was here when we actually voted to balance the 
budget. I remember saying to my husband, we are not going to 
have any more bounds because the debt is disappearing. I was 
here, so I know we can handle that problem.
    But the Highway Trust Fund is different. As it was 
envisioned by Republican President, it has a separate fee, it 
doesn't cause any problems to the deficit. That is very 
important and I think we should keep the user fee concept, 
because it does give that type of certainty. But that decision 
is going to be made by another committee. And they are very 
excited about us doing our part.
    And can't speak for every member. I have sat down with most 
of my colleagues. I have two more to sit down with on the 
Republican side. I am hopeful we can unite and that we don't 
get into arguments over environmental riders and all the other 
things, that we can just focus on what has to be done here. And 
I am excited about the challenge. No one thought we could do it 
last time, we proved that wrong.
    I want to say about Senator Sessions that he has been a 
friend to me in this committee. We don't see eye to eye on a 
lot of things, but we work well together. I respect his 
knowledge of the deficit situation, the debt situation, as a 
former member of the Budget Committee. I know that in that 
committee, you do see that big picture going down the road.
    There is nothing we will do in this bill that is going to 
hurt the deficit, nothing. It will be a self-sustaining trust 
fund, which is absolutely critical.
    And with that, I want to thank all of you. Report back to 
me about your conversations. I hope you will. And I will ask 
Senators Hatch and Wyden today when I see them, I will tell 
them that you said you were going to call them. I think we can 
get this done, but only if we stick together. So let's just 
find that common ground and not get into arguments about other 
issues. I think that gets us off track.
    Thank you very much. We stand adjourned.
    [Whereupon, at 11:45 a.m., the committee was adjourned.]
    [Additional material submitted for the record follows.]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    
    
                                 [all]
                                 
                                 
                                 
                                 
</pre></body></html>
